October 31, 2000 


PAUL E. VOGEL, JR. 

VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT


J. PAUL SEEHAVER
EXECUTIVE DIRECTOR, MAIL TRANSPORT EQUIPMENT
 SERVICE CENTER PROGRAM

SUBJECT:	 Audit Report - Adequacy of Mail Transport Equipment Center Network
          Internal Controls (Report Number TR-AR-01-001)

This report presents results from our audit of the Mail Transport Equipment Service
Center Network. This is the second in a series of reports and focuses on network
internal controls. The audit responds to a request from the Board of Governors.

Our audit revealed that equipment was invoiced as processed when work was not
performed; that containers were reported as repaired when no repairs were made; that
serviceable equipment was improperly condemned and discarded; and that these
deficiencies were caused by inadequate separation of duties, insufficient record
keeping, and insufficient quality assurance. The report provided four recommendations
to correct deficiencies. Management agreed with all our findings and recommendations,
and we believe their actions, taken or planned, should correct the issues identified.
Management’s comments and our evaluation of their comments are included in the
report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joseph Oliva,
director, Transportation, at (703) 248-2317 or me at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment
cc: Anthony M. Pajunas
    John R. Gunnels
Adequacy of Mail Transport Equipment Service          TR-AR-01-001
 Center Network Internal Controls




                                  TABLE OF CONTENTS
Executive Summary
                                        i

Part I

Introduction                                             1


   Background                                            1

   Objective, Scope, and Methodology                     2

   Prior Audit coverage                                  2


Part II

Audit Results                                            3


   Production Reporting and Invoicing                    3

   Equipment Disposal and Inventory Management           4

   Controls Over Contractor Work                         6

   Recommendations                                       8
   Management’s Comments                                 8

   Evaluation of Management’s Comments                   8


Appendix. Management’s Comments                          9

Adequacy of Mail Transport Equipment Service                                      TR-AR-01-001
 Center Network Internal Controls


                                 EXECUTIVE SUMMARY
 Introduction 	               The mail transport equipment service center network is a
                              centrally managed logistical system of 22 contractor
                              operated equipment service centers with dedicated
                              transportation. It is designed to supply Postal Service mail
                              processing facilities—and certain large customers—with
                              mailbags, sacks, pouches, trays, sleeves, pallets, hampers,
                              carts, and large rolling containers.

                              In 1997, the Board of Governors approved fielding of this
                              centralized “outsourced” network to replace decentralized,
                              internally operated systems. Initial requirements indicated a
                              $1.3 million capital investment and $3.6 billion in expense
                              funding over a ten-year period. Initial projections indicated
                              that the initiative would reduce costs by about $376 million
                              over the ten-year period. In 1999 the chairman of the Board
                              of Governors requested that we examine service center
                              operations. This is the second in a series of reports and
                              focuses on internal controls.

 Results in Brief	            Our audit revealed that controls were insufficient to detect or
                              prevent overstated or unsupported invoices. Specifically:

                              •	 Equipment was recorded or invoiced as processed when
                                 work was not accomplished.

                              •	 Containers were reported as repaired when no repairs
                                 were made.

                              •	 Serviceable equipment was improperly turned in for
                                 disposal.

                              Controls were also not sufficient to prevent the operating
                              contractor from improperly condemning and discarding
                              serviceable equipment, or to properly account for equipment
                              removed from inventory.

                              Most issues identified in this report occurred due to
                              inadequate separation of duties, insufficient record keeping,
                              and insufficient quality assurance. The Postal Service could
                              reduce the risk of paying for work that was not
                              accomplished by strengthening controls over recording,
                              documenting, and verifying contractor work.




                                               i
Adequacy of Mail Transport Equipment Service                                     TR-AR-01-001
 Center Network Internal Controls


 Summary of                   We recommend that the vice president of Network
 Recommendations              Operations Management segregate network oversight from
                              service center operations; require quality auditors to test
                              and verify the serviceability of equipment before it is
                              discarded; require individual rolling stock repair and
                              servicing histories to be documented; and to fully staff the
                              quality assurance function.

 Summary of                   Management agreed with all our findings and
 Management’s                 recommendations. They acknowledged that it was
 Comments                     desirable to separate quality audit and production functions,
                              and stated that they would evaluate such separation prior to
                              renewing the current integration contract. They
                              acknowledged that serviceable equipment could be
                              erroneously discarded because there were insufficient
                              quality assurance personnel to properly monitor the
                              function, and agreed to fully staff the independent quality
                              assurance function. Finally, management agreed to
                              examine procedures for recording individual rolling stock
                              repair and servicing histories, and to reinforce those
                              procedures with operating contractors.

                              Management’s comments in their entirety, are included in
                              the Appendix.

 Overall Evaluation of        Management’s comments were responsive to our findings
 Management’s                 and recommendations, and actions taken or planned
 Comments                     should correct the issues identified in this report.




                                               ii
Adequacy of Mail Transport Equipment Service                                       TR-AR-01-001
 Center Network Internal Controls


                                       INTRODUCTION
 Background 	                 The mail transport equipment service center network is a
                              logistical system of 22 contractor-operated equipment
                              service centers with dedicated “over the road”
                              transportation. It is designed to supply Postal Service mail
                              processing facilities—and certain large customers—with
                              mail transport equipment. Mail transport equipment
                              includes items such as mailbags, sacks, pouches, trays,
                              sleeves, pallets, hampers, and carts. It also includes large
                              rolling containers, referred to as “rolling stock,” used to
                              move mail “over the road.”

                              The geographically dispersed service centers recover used
                              equipment from user facilities, evaluate serviceability,
                              dispose of non-serviceable equipment, restore serviceable
                              equipment, and return restored equipment to inventory for
                              use. The centers also receive, store, and distribute
                              equipment that has been newly purchased by the Postal
                              Service or restored at other network locations.

                              In addition to operating the 22 centers, contractors provide:

                              h"	 Centralized information management to allow Postal
                                  Service managers to control the network at the national
                                  level.

                              h"	 Quality assurance at the service center level.

                              The "outsourced" concept was initiated in 1992 as a pilot,
                              with a prototype in Greensboro, North Carolina. The
                              prototype was intended to test and evaluate a
                              contractor-operated centralized network as a replacement
                              for the multiple, internally operated, and decentralized
                              systems in place at the time. The pilot contract was
                              renewed in 1995. In 1997, the Board of Governors
                              approved fielding of the full network. The approved
                              program required four independent levels of contractor
                              activity:

                              •	 A network “integration” contractor was to provide
                                 centralized coordination, system-wide information
                                 management, and inventory control, which would allow
                                 Postal Service managers to provide program oversight
                                 at the national level.




                                               1
Adequacy of Mail Transport Equipment Service                                      TR-AR-01-001
 Center Network Internal Controls



                              •	 A “research and development” contractor was to
                                 continue to operate the Greensboro prototype as a
                                 laboratory for testing new equipment processing
                                 procedures, in addition to operating the plant as a mail
                                 transport equipment service center.

                              •	 “Operating” contractors were to manage 21 service
                                 centers.

                              •	 A “quality assurance” contractor was to ensure
                                 compliance with operating contractors' statements of
                                 work at the service center level and audit the accuracy of
                                 production reporting.

                              Initial requirements indicated a $1.3 million capital
                              investment and $3.6 billion in expense funding over a ten-
                              year period. Initial projections indicated that the
                              “outsourcing” initiative would reduce labor, transportation,
                              and other costs by about $376 million over the ten-year
                              period.

 Objective, Scope, and        The objective of our audit was to assess the effectiveness of
 Methodology                  the internal controls protecting the service center network.

                              During our work, we visited 8 of the 22 service centers;
                              observed operations; interviewed contractors and Postal
                              Service personnel; evaluated Postal Service contracts,
                              regulations, and other documents; and analyzed federal law
                              and policy.

                              Our audit was conducted from August 1999 through
                              October 2000 in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.

 Prior Audit Coverage         Our April 5, 2000, report, Mail and Other Items Missent to
                              Mail Transport Equipment Service Centers (TR-AR-00-007),
                              concluded that mail and other items erroneously shipped to
                              service centers placed the security and timely delivery of
                              mail at risk.




                                               2
Adequacy of Mail Transport Equipment Service                                     TR-AR-01-001
 Center Network Internal Controls


                                      AUDIT RESULTS
 Production Reporting Controls over contractor work were not sufficient to detect or
 and Invoicing        prevent overstated or unsupported invoices. For example:

                              •	 At four of the eight service centers we visited, equipment
                                 was invoiced as processed when work was not actually
                                 performed. For example: the Cincinnati Service Center
                                 billed the Postal Service for processing trailers of
                                 inventory; however, the trailers were never unloaded and
                                 processed as required. Subsequently the contractor had
                                 to reimburse the Postal Service about $6,000. The Los
                                 Angeles center received pallets of new products that did
                                 not require processing. The pallets of products were
                                 reported as if they had been processed. The
                                 Washington Service Center replaced placards on
                                 processed products which can cause additional charges.
                                 In addition, the Washington service center also inducted
                                 rolling stock into repair stations that were not in need of
                                 repair.

                              •	 During a ten-day period at the Los Angeles Service
                                 Center, the weight of processed mailbags may have
                                 been overstated by about 20 percent; and the weight of
                                 processed trays, sleeves, and lids overstated by more
                                 than 30 percent. Processing discrepancies of this
                                 magnitude could have resulted in a daily average of
                                 about $13,000 in overcharges for the ten-day period.

                              •	 During a five-day period at the Chicago Service Center,
                                 the quality assurance auditor reported that rolling stock
                                 invoiced for payment was overstated by at least
                                 1,223 containers. As a result, the Postal Service
                                 required the operating contractor to reimburse
                                 approximately $26,000.

                              Overstated and unsupported invoices result in contractor
                              overpayments that increase operating costs and expose the
                              Postal Service to potential embarrassment.




                                               3
Adequacy of Mail Transport Equipment Service                                        TR-AR-01-001
 Center Network Internal Controls




 Equipment Disposal           Controls were also not sufficient to prevent operating
 and Inventory                contractors from improperly condemning and discarding
 Management                   serviceable equipment, or to properly account for equipment
                              removed from inventory.

                              The Postal Service spends about $91 million annually to
                              replace mailbags, trays, and sleeves. At the Los Angeles
                              Service Center, we observed service center personnel
                              condemning large quantities of serviceable pouches. One
                              hamper of pouches was condemned because service center
                              personnel considered them unserviceable. We requested
                              the contents of the hamper be inventoried which revealed
                              321 pouches scheduled for disposal. However, the
                              accompanying documentation reported only 128. After we
                              discussed the matter with a quality auditor, pouches
                              identified as new or serviceable were returned to inventory.
                              However, our discussion with the quality auditor revealed
                              independent verification and testing by quality assurance
                              personnel was not required for this type of equipment.




                                         SERVICEABLE EQUIPMENT CONDEMNED FOR DISPOSAL




                                                 4
Adequacy of Mail Transport Equipment Service                                    TR-AR-01-001
 Center Network Internal Controls



                              Since program inception, service centers have condemned
                              and discarded approximately 205,000 rolling stock
                              containers. Contract provisions require operating
                              contractors to obtain quality assurance verification and
                              approval before condemning and discarding rolling stock—
                              and there was no contract provision that permitted
                              delegation of authority to operating contractors. However, at
                              three service centers we visited, quality assurance auditors
                              delegated such authority. A Postal Service official we
                              interviewed explained that the contract deviation was
                              necessary to prevent warehouse congestion when the
                              quality auditor was not on site.




                                               5
Adequacy of Mail Transport Equipment Service                                       TR-AR-01-001
 Center Network Internal Controls




 Controls Over 	              Most of the issues identified in this report occurred due to
 Contractor Work 	            inadequate separation of duties, insufficient record keeping,
                              and insufficient quality assurance. The General Accounting
                              Office’s Standards for Internal Control in the Federal
                              Government require program managers to segregate
                              independent functions, like program operations and
                              information management; accurately document records
                              readily available for examination; and support critical internal
                              control functions, like independent quality assurance.

 Separation of Duties         The Postal Service did not provide sufficient segregation of
                              contractor responsibilities. In many cases, the same
                              contractor performing work was responsible for developing
                              the data the Postal Service used to oversee that work. The
                              Postal Service relied on operating contractors to accurately
                              report production and invoicing data, and relied on the
                              integration contractor to independently develop production
                              and invoicing data. However, the same contractor who
                              provided network integration also operated four network
                              service centers. This was the same contractor who may
                              have overstated the weight of mailbags by more than
                              20 percent and the weight of trays, sleeves, and lids by
                              more than 30 percent. The same contractor discarded
                              serviceable equipment and had to reimburse the Postal
                              Service $26,000 for overstating “rolling stock” production.

 Documentation                Operating contractors did not maintain adequate rolling
                              stock repair histories. During each of our service center
                              visits, we observed multiple repair stickers affixed to rolling
                              stock containers indicating chargeable work had been
                              accomplished. The containers were uniquely identified and
                              bar coded, but recording procedures did not always ensure
                              individual repair histories were maintained. Consequently, it
                              was not possible to identify what work each repair sticker
                              represented—or independently verify whether such work
                              was necessary, duplicated or performed.

 Quality Assurance            The independent quality assurance function was not staffed
 Staffing                     sufficiently. Most service centers operated at least two
                              shifts. However, Postal Service contracting officer
                              representatives were not on site—domiciled at Postal
                              Service Headquarters, and the independent quality
                              assurance contract provided only one quality auditor for
                              an eight-hour day. Consequently, the quality auditor was



                                                6
Adequacy of Mail Transport Equipment Service                                      TR-AR-01-001
 Center Network Internal Controls


                              not routinely available to perform necessary verification or
                              tests.




                                               7
Adequacy of Mail Transport Equipment Service                                      TR-AR-01-001
 Center Network Internal Controls




 Recommendations	             We recommend that the vice president of Network
                              Operations Management:

                              1. Segregate network integration from service center
                                 operations by requiring those independent functions to
                                 be performed by different and unrelated contractors.

 Management’s 	               Management agreed with our recommendation and stated
 Comments 	                   that it was desirable to separate functions. They also stated
                              that prior to the conclusion of the current integration
                              contract, they would evaluate the advantages and
                              disadvantages of separating those functions.

 Recommendation               2. Require that quality assurance auditors test and verify
                                 the serviceability of equipment before it is discarded.

 Management’s 	               Management agreed with our recommendation. They stated
 Comments 	                   that due to insufficient quality assurance staffing, it was
                              possible for equipment to be discarded without being
                              reviewed by a quality assurance auditor. Management
                              agreed to fully staff the quality assurance function.

 Recommendation               3. Revise or reinforce procedures for recording individual
                                 rolling stock repair and servicing histories and make such
                                 maintenance records readily available to quality
                                 assurance auditors.

 Management’s 	               Management agreed with our recommendation. They stated
 Comments 	                   that they would examine procedures for recording individual
                              rolling stock repair and servicing histories, and reinforce the
                              procedures with operating contractors.

 Recommendation               4. Fully staff the independent quality assurance function by
                                 expanding the quality assurance contract or assigning
                                 Postal Service quality assurance personnel.

 Management’s                 Management agreed with our recommendation. They stated
 Comments                     that they would fully staff the independent quality assurance
                              function in order to provide full operations coverage.

 Evaluation of                Management’s comments are responsive to our findings and
 Management’s                 recommendations. We believe that the actions taken and
 Comments                     planned should correct the issues identified in our report.




                                               8
Adequacy of Mail Transport Equipment Service          TR-AR-01-001
 Center Network Internal Controls



                    APPENDIX. MANAGEMENT’S COMMENTS




                                               9
Adequacy of Mail Transport Equipment Service        TR-AR-01-001
 Center Network Internal Controls




                                               10
